U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 26, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Martin A. Armstrong v. Securities and Exchange Commission, et a!,
S.CtNo. 19-392

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on September 19, 2019.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government's response is now due on December 2, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 2, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0392
ARMSTRONG, MARTIN A.
SEC, ET AL.

GEORGE W. HICKS
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20005
202-389-5000
GEORGE.HICKS@KIRKLAND.COM
THOMAS V. SJOBOLM
LAW OFFICE OF THOMAS V. SJOBLOM
1300 I STREET, NW
SUITE 400E
WASHINGTON , DC 20005

